                                                         u~     -v~
                                                     ~~
                                                     \     IIII1II~~
                                                          ;Y/S"ri-"

                                       SOOAL              SECURITY
                                        Office of the Inspector General
MEMORANDUM
Date:      January   22,   2001                                                            ReferTo: 31022- 23-125

To:        William A. Halter
           Acting Commissioner
            of Social Security
From:
           Inspector General


Subject:
           Obstacles to Reducing   Social Security   Number            Misuse in the Agriculture   Industry
           (A-08-99-41 004 )



           The attached final report presents the results of our review. Our objective was to
           assess the potential for misuse of Social Security numbers within the agriculture
           industry.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.


                                                              11..;.      , -~~~

                                                              "lJ:::~~.'~use,        Jr.



           Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



     OBSTACLES TO REDUCING
     SOCIAL SECURITY NUMBER
    MISUSE IN THE AGRICULTURE
             INDUSTRY

   January 2001   A-08-99-41004



  MANAGEMENT

 ADVISORY REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                             Executive Summary
OBJECTIVE

The objective of the review was to assess the potential for misuse of Social Security
numbers (SSN) within the agriculture industry.1

BACKGROUND

One of the Social Security Administration’s (SSA) most important responsibilities is to
maintain records of wage amounts employers pay individuals. To facilitate this
responsibility, SSA created SSNs as a method of maintaining individual earnings
records and issued workers cards as a record of their SSN.

Because SSA calculates future benefit payments based on the earnings an individual
has accumulated over his or her lifetime, accuracy in recording those earnings is critical.
SSA’s ability to do so, however, greatly depends on employers and employees correctly
reporting names and SSNs on Form W-2s (Wage and Tax Statement). As such, SSA
provides employers information and services to help them with this responsibility. For
example, SSA offers employers an Enumeration Verification System (EVS) that
provides a mechanism to match employees’ names and SSNs with SSA records.

SSA also uses over 20 automated edits to match employees’ names and SSNs and
properly credit their earnings to the Master Earnings File. SSA places wage items that
fail to match name and SSN records into its Earnings Suspense File (ESF).2 From
1996 through 1998, the ESF grew by an average of 6.6 million wage items and
$27.4 billion, annually. To address this growth, SSA developed an ESF tactical plan,
which it issued in draft in 1997 and finalized in March 1999. This plan outlines the
policy, operational, and system improvements SSA believes are necessary to fulfill its
commitment to reduce the ESF’s growth and size.

SSN misuse often occurs when an individual provides an employer with an SSN that
either has (1) never been issued or (2) already been assigned to another person.
Individuals use SSNs illegally for a variety of reasons, one of which is to obtain
employment. SSA efforts to address SSN misuse require coordination with, and/or
assistance from, other Federal agencies, such as the Internal Revenue Service (IRS)
and the Immigration and Naturalization Service (INS).


1
 We use the term “SSN misuse” throughout this report to refer to situations in which individuals illegally
used SSNs to obtain employment.
2
 A wage item is an individual employee report prepared by employers on Form W-2 after the close of the
calendar year that shows wages paid and taxes withheld during the prior year.


SSN Misuse In The Agriculture Industry (A-08-99-41004)                                                       i
We met with SSA Headquarters senior staff and regional and field office staff
responsible for planning, managing, and implementing the Agency’s initiatives regarding
the ESF and SSN misuse. Additionally, to determine the potential for misuse of SSNs
within the agriculture industry, we obtained ESF data for Calendar Years 1996 through
1998 for California and Florida, two of the country’s largest agricultural States. We then
identified all employers who contributed 100 or more wage items to the ESF in each of
the 3 years, selecting for further analysis the 10 agricultural employers with the most
suspended wage items within each State. For the 20 employers selected, we analyzed
categories of reporting irregularities, such as SSNs that SSA had never issued or
assigned to another individual. We also visited 6 of the 20 agricultural employers and
2 agricultural growers associations. Additionally, we interviewed senior staff at the IRS
and the INS to obtain their views on employers who submit inaccurate wage reports and
the extent to which unauthorized noncitizens contribute to this problem. 3

RESULTS OF REVIEW
The extent of SSN misuse in the agriculture industry can never be precisely quantified;
however, based on our interviews with agricultural employers, growers associations,
and SSA senior staff, we believe it is widespread. For example, for Calendar Years
1996 through 1998, the 20 agricultural employers we reviewed submitted over
150,000 wage items for which the employee’s name and/or SSN did not match SSA
records. These items represented almost $250 million in suspended earnings over the
3-year period. About 6 of every 10 wage items submitted by these agricultural
employers did not match the names/SSNs contained in SSA files.

We also identified various types of reporting irregularities. During our review period,
2 employers submitted over 7,000 SSNs that SSA had never issued. Another employer
submitted more than 900 duplicate SSNs over the 3-year period. While we recognize
there are legitimate reasons why a worker’s name and SSN may not match SSA’s files,
such as name changes, we believe the magnitude of erroneous or incorrect wage
reporting is indicative of SSN misuse. SSA senior staff acknowledged the intentional
misuse of SSNs by noncitizens not authorized to work is a major contributor to the
ESF’s growth.

To its credit, SSA recognizes the impact SSN misuse has on its programs, including
growth of the ESF, and has identified a number of initiatives to reduce such activity. For
example, SSA has initiated several outreach efforts to assist and train employers in
accurate wage reporting. Despite these efforts, significant obstacles to reducing SSN
misuse and growth of the ESF remain. Resistance on the part of employers to
participate in EVS and the IRS’ reluctance to impose existing civil penalties against
employers who submit inaccurate wage reports have hampered SSA’s ability to combat
SSN misuse. Furthermore, privacy and disclosure issues (that is, sharing name/SSN

3
   We use the term “unauthorized noncitizens” to refer to individuals who do not have permission from the
INS to work in the United States but who are working, regardless of whether they entered legally or
illegally. Unauthorized noncitizens in the United States are subject to removal from the country by the
INS.


SSN Misuse In The Agriculture Industry (A-08-99-41004)                                                      ii
information) have limited collaborative efforts between SSA and the INS. SSA believes
its application of privacy and disclosure policy complies with existing law, and we agree
with this analysis. However, such a position should not detract from SSA’s obligation to
seek legislative remedies. Specifically, SSA should seek additional legislative authority
to assist in removing any current barriers it believes preclude the sharing of this
information. In addition, although SSA senior staff told us unauthorized noncitizens
account for a significant portion of suspended wage items, SSA’s tactical plan for
reducing the growth and size of the ESF does not adequately address this issue.

CONCLUSIONS AND RECOMMENDATIONS
SSN misuse within the agriculture industry results in millions of dollars in wages that
cannot be associated with workers’ earnings records. Additionally, reports of SSN
misuse adversely affect public confidence in SSA’s stewardship of Agency programs.
We recognize no single agency can adequately combat this problem. However, given
the large number of erroneous wage items submitted by agricultural employers, we
believe SSA should take preemptive and preventive measures to ensure the SSN’s
integrity. Ultimately, the success of SSA’s efforts will depend on the priority it places on
prevention and detection of SSN misuse and how successful it is in obtaining
assistance and support from the IRS and the INS.

In prior Office of the Inspector General reports, we made recommendations to help
reduce growth of the ESF. The report titles and applicable recommendations are listed
in Appendix A of this report. We continue to support these recommendations and
encourage SSA to implement these actions. In addition to the previously suggested
initiatives, we recommend that SSA:

•	 Expedite implementation of the initiative to improve communication of name/SSN
   errors to employers and employees.

•	 Seek legislative authority to provide SSA with the tools to require chronic problem
   employers to use EVS.

•	 Collaborate with the INS to develop a better understanding of the extent that
   immigration issues contribute to SSN misuse and growth of the ESF. Additionally,
   reevaluate its application of existing disclosure laws or seek legislative authority to
   remove barriers that would allow the Agency to share information regarding chronic
   problem employers with the INS.

•	 Establish performance goals and measures in accordance with the Government
   Performance and Results Act of 1993 that track SSA’s success in reducing the
   growth and size of the ESF.




SSN Misuse In The Agriculture Industry (A-08-99-41004)                                       iii
AGENCY COMMENTS

In its response, SSA agreed with our first recommendation and stated it has already
begun implementing the corrective action. For Tax Year (TY) 2000, which begins
January 29, 2001, SSA plans to accelerate the return of name/SSN error information to
employers. Additionally, SSA has developed a stronger notice communicating
name/SSN error information to employers. Further, on its resubmittal notices (which
return the entire report to the employer), SSA plans to include counts of the number of
zero SSNs (000-00-0000), invalid SSNs (SSNs that could not be compared to SSA’s
Numident), and name/SSN mismatches.

As a part of its response to our first recommendation, SSA also described further
changes it plans to implement to the TY 2000 Annual Wage Reporting (AWR) edits.
Specifically, SSA plans to (1) eliminate the current 50-percent tolerance rate for
acceptance of name/SSN mismatches; (2) apply a 95-percent format edit for SSN and
name fields in reports with 50 or more W-2s; and (3) eliminate the threshold of 5,000 or
more name/SSN mismatches (failure of edit requires a resubmission). For TYs 2001
and beyond, SSA plans to modify the AWR process so all good name/SSN items are
processed to the Master Earnings File, incorrect items go into the ESF, and a request
for corrective action is sent to the employer as soon as possible.

SSA disagreed with our second recommendation. SSA stated the IRS already has the
authority to penalize employers who do not comply with wage reporting requirements.
Furthermore, the Agency stated it identified the top chronic ESF offenders for TYs 1996
through 1998 and shared this information with the IRS.

SSA also disagreed with our third recommendation concerning collaboration and the
sharing of information with the INS. In its response, SSA stated its interpretation of
privacy and disclosure issues is accurately applied and continues to provide appropriate
disclosure guidance with existing authority. SSA stated current regulations provide
sufficient authority to share information with other agencies, including the INS, in
situations that are consistent with the purpose of the Social Security program and SSA’s
disclosure policies. The Agency does not see a need to reevaluate its disclosure
policies or seek legislation in this area.

To address recommendation four, SSA agreed a performance measure related to the
steps it is taking to limit the growth of the ESF may be appropriate and plans to evaluate
how it can establish such goals and measures.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
We acknowledge the steps SSA has taken and contemplated to combat SSN misuse
and the ESF’s growth. We believe the Agency’s response and planned actions
adequately address recommendations 1 and 4. However, we believe SSA’s responses
to recommendations 2 and 3 do not effectively respond to our goal of combating SSN
misuse and reducing the ESF’s growth and size. Additionally, we have concerns


SSN Misuse In The Agriculture Industry (A-08-99-41004)                                  iv
regarding the proposed changes to AWR edits SSA described in its response to
recommendation 1. We believe these changes will serve as a disincentive for
employers to improve their wage reporting accuracy. Accordingly, we encourage SSA
to reconsider its implementation of these policies until it conducts further analysis to
determine the possible effect on the ESF.

Regarding recommendation 2, the IRS has been reluctant to impose existing civil
penalties against employers who submit inaccurate wage reports, as discussed in this
report. IRS senior staff expressed concern with the application of penalties because
they believe it is difficult to determine whether an employer exercised appropriate
diligence in obtaining the necessary information from employees. We continue to
believe it is important that SSA seek legislative authority to require employers who
submit inaccurate wage reports to use EVS. By doing so, SSA could assist the IRS in
its efforts to apply penalties (by providing them with sufficient evidence to show an
employer knew, or should have known, its employees’ SSNs were incorrect). We
acknowledge SSA’s efforts in working with the IRS to improve employer wage reporting.
However, until SSA requires chronic problem employers to use EVS and holds them
accountable for their actions, we do not believe employer wage reporting will
significantly improve. Accordingly, we ask the Agency to reconsider its response to this
recommendation.

We also do not agree with SSA’s response to recommendation 3. We did not intend to
suggest that SSA is not in compliance with current law and regulations. Rather, our
intent was to urge the Agency to explore all potential options under current law and
regulations first before seeking new legislative authority. We acknowledge SSA’s
efforts to combat SSN misuse and reduce the ESF’s growth. However, given the
magnitude of SSN misuse by unauthorized noncitizens, we continue to believe SSA
should take preemptive and preventive measures to ensure the SSN’s integrity. We
believe that seeking legislative authority to remove barriers that would allow the Agency
to share information with the INS, as it currently does with the IRS, is imperative. In
fact, an INS senior staff member stated the INS would be interested in receiving
information on chronic problem employers from SSA. Without SSA action, we do not
believe the Agency will make significant progress in addressing SSN misuse and the
ESF’s growth. We also point out that SSA’s response did not address the part of our
recommendation about collaborating with the INS to develop a better understanding of
the extent immigration issues contribute to SSN misuse and the ESF’s growth. As
discussed in this report, unauthorized noncitizens contribute greatly to SSN misuse and
the ESF’s growth. As such, we continue to believe SSA should collaborate with the INS
to determine the extent to which unauthorized noncitizens contribute to these problems.
Therefore, we also ask that SSA reconsider its response to this recommendation.

SSA also provided technical comments that we considered and incorporated, where
appropriate. The full text of SSA’s comments is included in Appendix B.




SSN Misuse In The Agriculture Industry (A-08-99-41004)                                     v
                                                     Table of Contents

                                                                                                              Page


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 5


SSN MISUSE IN THE AGRICULTURE INDUSTRY IS WIDESPREAD ................. 6


  •    Types of Reporting Irregularities..................................................................... 7


  •	 Unauthorized Noncitizen Workforce is a Major Contributor to SSN

     Misuse in the Agriculture Industry................................................................... 7


SSA IS TAKING STEPS TO REDUCE ITS VULNERABILITY TO

SSN MISUSE, YET CONSIDERABLE OBSTACLES REMAIN .............................. 9


  •    SSA Outreach to Employers........................................................................... 9


  •    Employer Participation in EVS...................................................................... 10


  •    Assistance from Other Federal Agencies ..................................................... 10


  •    Plans for Addressing Unauthorized Noncitizens .......................................... 12


CONCLUSIONS AND RECOMMENDATIONS .................................................... 14


APPENDICES


APPENDIX A – Prior Office of the Inspector General Recommendations


APPENDIX B – Agency Comments


APPENDIX C – OIG Contacts and Staff Acknowledgements





SSN Misuse In The Agriculture Industry (A-08-99-41004)
                                                               Acronyms

 AWR                        Annual Wage Reporting

 CY                         Calendar Year

 ESF                        Earnings Suspense File

 EVS                        Enumeration Verification System

 INS                        Immigration and Naturalization Service

 IRCA                       Immigration Reform and Control Act of 1986

 IRS                        Internal Revenue Service

 MEF                        Master Earnings File

 OEVS                       On-line Employee Verification Service

 SSA                        Social Security Administration

 SSN                        Social Security Number

 TY                         Tax Year





SSN Misuse In The Agriculture Industry (A-08-99-41004)
                                                         Introduction

OBJECTIVE
The objective of the review was to assess the potential for misuse of Social Security
numbers (SSN) within the agriculture industry.

BACKGROUND
One of the Social Security Administration’s (SSA) most important responsibilities is to
maintain records of wage amounts employers pay individuals. To facilitate this
responsibility, SSA created SSNs as a method of maintaining individual earnings
records and issued workers cards as a record of their SSNs. SSA’s ability to accurately
record wages depends on employees and employers providing correct names and
SSNs.

                                              Exhibit 1: Citrus Harvesting in Florida
SSA provides employers information and
services to help them accurately record
and report employees’ names and SSNs
on Form W-2s (Wage and Tax
Statement). For example, SSA provides
an Enumeration Verification System
(EVS), a voluntary program that offers
employers a mechanism to match
employees’ names and SSNs with SSA
records. In addition, SSA uses over
20 automated edits to match employees’
names and SSNs and properly credit
their earnings to the Master Earnings File
(MEF). SSA places wage items that fail
to match name and SSN records in its
Earnings Suspense File (ESF). When wage items reach the ESF, SSA mails letters to
employees to resolve discrepancies. SSA sends letters to the employer only if it has no
address for the employee. From 1996 through 1998, the ESF grew by an average of
6.6 million wage items and $27.4 billion, annually. To address this growth, SSA
developed an ESF tactical plan, which it issued in draft in 1997 and finalized in
March 1999. This plan outlines the policy, operational, and system improvements SSA
believes are necessary to fulfill its commitment to reduce the ESF’s growth and size.

Ensuring that employers report correct names and SSNs is important to employees
because their future benefits will be based on their earnings records. Accurate
reporting is also important to employers because they can avoid the costs of correcting




SSN Misuse In The Agriculture Industry (A-08-99-41004)                                    1
inaccurate reports as well as possible penalties by the Internal Revenue Service (IRS).
Further, the accuracy of employees’ names and SSNs is important to SSA because it
reduces operating costs. SSA estimates it costs less than $.50 to post a correctly
submitted wage item to an individual’s earnings record and an average of $300 to
correct an item once it goes into the ESF.

SSN Misuse

Expanded use of the SSN has given rise to individuals using counterfeit SSNs and
misusing SSNs that belong to others. Individuals use SSNs illegally for a variety of
reasons, one of which is to obtain employment. SSN misuse often occurs when an
individual provides an employer with an SSN that either has (1) never been issued
(unassigned SSN) or (2) already been assigned to another individual. SSA studies
have shown that about 55 percent of items in the ESF have no name, no SSN, no name
and no SSN, or an invalid SSN. About 41 percent show no relationship to the names on
SSA’s master file of SSNs issued. These percentages strongly suggest that many
items enter the ESF because of SSN misuse. Unlike the IRS, SSA has no legal
authority to levy fines and penalties against employers who submit erroneous wage
reports.
                                                       Exhibit 2: Orchard Pruning
                                                                  in California

                              SSA statistics show
The Agriculture Industry three industries
Is the Largest                (agriculture, bars and
Contributor to the ESF        restaurants, and
                              services) account for
almost one-half of all wage items in the ESF. Of
these industries, agriculture is the largest
contributor, representing about 17 percent of all
ESF items. Many agriculture employees are
transient, frequently changing jobs and residences.
These circumstances complicate SSA’s name and
SSN correction efforts when recontacts are
necessary.

Unauthorized Noncitizens

One of the magnets attracting unauthorized

noncitizens to the United States is jobs. Even

among those noncitizens who enter the United States legally (for example, as tourists or

students), many are believed to overstay their visas and take jobs. In 1996, the

Immigration and Naturalization Service (INS) estimated that over 5 million unauthorized

noncitizens resided illegally in the United States, and their numbers increased at an

average rate of about 275,000 per year between 1992 and 1996. Many immigration

experts have said that, as long as opportunities for employment exist, the incentive to

enter the United States illegally or overstay visas will persist.


SSN Misuse In The Agriculture Industry (A-08-99-41004)                                    2
Role of Other Federal Agencies

The IRS uses W-2s to enforce tax laws and can penalize employers and employees for
providing incorrect information. Under IRS Code, the IRS may charge a $50 penalty
each time an employer does not furnish an employee’s correct SSN on a wage report.1
The IRS may also charge an employee a $50 penalty each time he or she does not
furnish an employer the correct SSN. The IRS is authorized to impose these penalties
unless the employer or employee can show reasonable cause for not providing the
correct information.

The INS has oversight responsibility for unauthorized noncitizens. The Immigration
Reform and Control Act of 1986 (IRCA) made it illegal for employers to knowingly hire
or continue to employ unauthorized noncitizens. Employers must request newly hired
employees to present documents that establish their identity and eligibility to work. The
INS also requires employers to complete Form I-9 (Employment Eligibility Verification
Form), certifying they have reviewed the documents, and the documents appear
genuine and relate to the individual. In making their certifications, employers are
expected to determine whether documents are obviously fraudulent. IRCA provides
penalties or sanctions against employers who violate the law.

Prior SSA/Office of the Inspector General Reports

Recognizing the impact SSN misuse has on SSA programs, we conducted two reviews
to identify employers who contribute to the growth and size of the ESF and report on
SSA’s efforts to address this problem. Our report, Patterns of Reporting Errors and
Irregularities by 100 Employers with the Most Suspended Wage Items,
September 1999, recommended, among other things, SSA develop and implement a
corrective action plan for the 100 employers and continue its efforts to contact those
employers who are responsible for large numbers of suspended wage items. Our
February 2000 report, The Social Security Administration’s Earnings Suspense File
Tactical Plan and Efforts to Reduce the File’s Growth and Size, made further
recommendations, including pursuing penalties for chronic problem employers. See
Appendix A for a full list of recommendations made in these reports.




1
    26 U.S.C., section 6721 (a).

SSN Misuse In The Agriculture Industry (A-08-99-41004)                                   3
SCOPE AND METHODOLOGY
To accomplish our objective, we interviewed SSA Headquarters senior staff and
regional and field office staff responsible for planning, managing, and implementing the
Agency’s initiatives regarding the ESF and SSN misuse. We reviewed SSA regulations,
policies, and requirements pertaining to enumeration and wage reporting functions as
well as tactical plans developed by SSA.

To determine the potential for SSN misuse within the agriculture industry, we obtained
ESF data for Calendar Years (CY) 1996 through 1998 for California and Florida, two of
the country’s largest agricultural States. From this population, we selected the
10 agricultural employers from each State with the most suspended wage items over
the 3-year period. We then analyzed ESF data for each of the 20 selected employers.
Specifically, we categorized the ESF wage items for each of the 3 years to include the
following reporting irregularities: unassigned SSNs and assigned SSNs used by multiple
individuals (duplicates). We also performed additional analyses to identify instances
where employers submitted the same incorrect SSN over multiple years. In addition,
we visited 6 of the 20 agricultural employers selected and 2 agricultural growers'
associations to obtain information on their experiences with employees who provide
erroneous or incorrect names or SSNs.

We performed our work at SSA Headquarters in Baltimore, Maryland; SSA regional
offices in Atlanta, Georgia, and San Francisco, California; and field offices in
Ft. Meyers, Florida, and Fresno, California. In addition, we interviewed IRS and INS
senior staff as well as INS field office agents in Miami, Florida, and Fresno, California, to
obtain their views on employers who submit inaccurate wage reports and the extent to
which unauthorized noncitizens contribute to this problem.

The SSA entities reviewed were the Office of Central Operations within the Office of the
Deputy Commissioner for Operations and the Office of Systems Requirements within
the Office of the Deputy Commissioner for Systems. We conducted our work from
August 1999 through May 2000.




SSN Misuse In The Agriculture Industry (A-08-99-41004)                                     4
                                            Results of Review

The extent of SSN misuse in the agriculture industry can never be precisely quantified;
however, based on our interviews with agricultural employers, growers associations,
and SSA senior staff, we believe it is widespread. For example, from 1996 through
1998, the 20 agricultural employers we reviewed submitted over 150,000 wage items for
which the employee’s name and/or SSN did not match SSA records. These wage items
represented almost $250 million in suspended wages over the 3-year period. About
6 of every 10 wage items submitted by these agricultural employers did not match
names/SSNs contained in SSA files. Moreover, we identified several reporting
irregularities, such as unassigned SSNs and SSNs used by multiple individuals. While
we recognize there are legitimate reasons why a worker’s name and SSN may not
match SSA files, such as name changes, we believe the magnitude of incorrect wage
reporting is indicative of SSN misuse.

To its credit, SSA recognizes the impact SSN misuse has on its programs, including
growth of the ESF, and has identified a number of initiatives to reduce such activity. For
example, SSA initiated several outreach efforts to assist and train employers in accurate
wage reporting. Despite these efforts, significant obstacles to reducing SSN misuse
and growth of the ESF remain. Resistance on the part of employers to participate in
EVS and the IRS’ reluctance to impose existing civil penalties against employers who
submit inaccurate wage reports have hampered SSA’s ability to combat SSN misuse.

Furthermore, privacy and disclosure issues (that is, the sharing of information) have
limited collaborative efforts between SSA and the INS. SSA believes its application of
privacy and disclosure policy complies with existing law, and we agree with this
analysis. However, such a position should not detract from SSA’s obligation to seek
legislative remedies. Specifically, SSA may seek additional legislative authority to
assist in removing any current barriers it believes preclude the sharing of this
information. In addition, although SSA senior staff told us unauthorized noncitizens
account for a significant portion of suspended wage items, SSA’s tactical plan for
reducing the growth and size of the ESF does not adequately address this issue.




SSN Misuse In The Agriculture Industry (A-08-99-41004)                                   5
SSN MISUSE IN THE AGRICULTURE INDUSTRY IS WIDESPREAD

About 6 of every 10 wage items submitted by the 20 agricultural employers we reviewed
did not match SSA records and went into the ESF, as shown in Exhibit 3.

                                                      Exhibit 3:	 Ratio of Wage Items Posted
                                                                  to the MEF and ESF
On Average, 6 of Every
10 Agricultural Wage
Items Reviewed Went
Into Suspense

The average percentage of wage
items going into the ESF over
the 3-year period ranged from a
low of about 30 percent for one
employer to a high of about
79 percent for another, as shown
in Exhibit 4. Moreover, 18 of the
20 employers (90 percent)
experienced increases in the
percentage of suspended wage
items from 1996 through 1998.
The 2 employers who did not
experience a percentage
increase still contributed over
20,000 wage items and over
$28 million to the ESF over the
3-year period.

                  Exhibit 4: Average Percentage of Wage Items In Suspense
                             for 20 Employers in CYs 1996-1998

                                           100%
                   Average Wage Items in




                                           80%
                         Suspense




                                           60%

                                           40%

                                           20%

                                            0%
                                                  Top 20 Agriculture Em ploye rs




SSN Misuse In The Agriculture Industry (A-08-99-41004)                                         6
Types of Reporting Irregularities

During our review of the 20 agricultural employers’ annual wage reports, we identified
various types of reporting irregularities, such as large numbers of unassigned and
duplicate SSNs. Our analysis showed the following.

•	 SSA had never assigned about 50,000 (33 percent) of the reported SSNs.
   Two employers submitted over 7,000 unassigned SSNs from 1996 through 1998.
   Another employer submitted over 4,000 unassigned SSNs during the 3-year period.
   Twelve of the remaining 18 employers submitted at least 1,000 unassigned SSNs.

•	 The remaining 100,000 (67 percent) SSNs were numbers SSA had assigned to
   someone else. One agricultural employer submitted over 900 duplicate SSNs from
   1996 through 1998, meaning multiple employees used the same SSNs to work for
   the employer. Another employer submitted over 500 duplicate SSNs during the
   3-year period. Three additional employers submitted over 100 duplicate SSNs.

Additional analysis of the 20 agricultural employers’ annual wage reports showed
employees repeatedly used the same incorrect SSNs over multiple years. We identified
over 15,000 incorrect SSNs employees used during 1996 and 1997. Of these, we
identified over 6,000 incorrect SSNs employees also used in 1998.

Unauthorized Noncitizen Workforce Is a Major Contributor to SSN Misuse in the
Agriculture Industry

Based on interviews we conducted with employers, growers associations, and SSA
senior staff, there is a general consensus that unauthorized noncitizens contribute
                                  significantly to SSN misuse and to the growth of the
 Several Agricultural             ESF. In fact, several of the agricultural employers we
 Employers                        interviewed acknowledged that large numbers of their
 Acknowledged That                workers were unauthorized noncitizens. They told us
 Large Numbers of Their           that, while they examine various types of employment
 Workers Were                     eligibility documents, they know many of them may be
 Unauthorized                     fraudulent. Several employers stated they did not
 Noncitizens                      believe it was their responsibility to be a “police force.”

Employers we spoke with also stated the unauthorized workforce was the only labor
pool available to them. These employers stated they could go out of business if they
ask too many questions regarding their employees’ work eligibility. Specifically, the
demand for agriculture workers is great; therefore, employees could work for many
other employers who do not verify the validity of their work authorization documents.
Faced with losing workers to their competitors and/or having a crop rot in the field, the
employers told us they have no choice but to hire unauthorized workers. As to the
potential penalties associated with hiring illegal workers, one employer told us it is a
business decision and the company will take its chances with the Government.


SSN Misuse In The Agriculture Industry (A-08-99-41004)                                          7
                 Exhibit 5: Preparation of Strawberry Fields in California




Employers also expressed concern over legal issues. For example, some employers
told us they photocopied the SSN cards of new hires to show they made a good faith
effort to hire legal workers. On the other hand, others were unsure if they should copy
the card because it could be used against them if the INS subsequently determined the
worker was illegal. Employers were also concerned about their liability if they fired
workers whose names and SSNs did not match SSA’s records.

Both of the agricultural growers' associations we interviewed acknowledged that most of
the employers they represent hire unauthorized noncitizens. For example, the president
of a growers' association representing over 1,000 employers in California stated that
about 90 percent of the agricultural workforce is illegal. He told us many of the letters
his employers receive from SSA regarding name and SSN mismatches affirm this fact.
Further, the president stated SSA (through its identification of name/SSN mismatches)
has done the INS’ job. However, he stated INS did not want to be the “bad guy” and be
negatively viewed by Congress and the public. The association president also told us
he instructs his growers not to use EVS or make copies of workers’ SSN cards because
knowingly hiring an unauthorized noncitizen is a Federal offense, and growers cannot
be charged with something they do not know. The association president believed the
only real solution to the unauthorized noncitizen problem was for Congress to legalize
the illegal workforce with guestworker legislation.

SSA senior staff acknowledged the agriculture industry is the largest contributor to the
ESF, and the intentional misuse of SSNs by unauthorized noncitizens has been a major
contributor to the growth of the ESF. Senior staff told us employers hire unauthorized
workers because there is no deterrent to prevent them from doing so. That is,
employers know that SSA has no legal authority to levy fines and penalties, and they do
not fear sanctions from the IRS or the INS. Therefore, the employers we spoke with



SSN Misuse In The Agriculture Industry (A-08-99-41004)                                    8
generally ignore SSA outreach efforts aimed at reducing SSN misuse and improving the
effectiveness of annual wage reporting.

SSA IS TAKING STEPS TO REDUCE ITS VULNERABILITY TO SSN
MISUSE, YET CONSIDERABLE OBSTACLES REMAIN
Despite a number of initiatives to reduce SSA’s vulnerability to SSN misuse, significant
obstacles remain. Resistance on the part of employers to participate in SSA’s EVS and
the IRS’ reluctance to impose existing civil penalties against employers who submit
inaccurate wage reports have hampered SSA’s ability to combat SSN misuse.
Furthermore, privacy and disclosure issues (that is, sharing name/SSN information)
have limited collaborative efforts between SSA and the INS. SSA believes its
application of privacy and disclosure policy complies with existing law, and we agree
with this analysis. However, such a position should not detract from SSA’s obligation to
seek legislative remedies. In addition, although SSA senior staff told us unauthorized
noncitizens account for a significant portion of suspended wage items, SSA’s tactical
plan for reducing the growth and size of the ESF does not adequately address this
issue.

SSA Outreach to Employers

SSA has initiated several efforts to educate employers about the importance of accurate
wage reporting. Since 1997, SSA has been contacting employers responsible for
100 or more suspended wage items to assist them in correcting suspended wages for
the past tax year and preparing accurate wage reports in subsequent years. In addition,
SSA provides assistance to employers in verifying employees’ names and SSNs
through its 800-telephone number. SSA senior staff believe outreach is important, but
they acknowledge its impact to reduce the ESF is limited. Outreach efforts are only
effective for those employers who have a desire to report wages correctly.

SSA has additional plans to assist employers by improving its method of communicating
name and SSN errors to employers and employees. SSA recognizes that employer
error notices do not communicate to the employer in a timely, efficient, and effective
manner. The process is slow; does not take full advantage of technology, such as the
use of fax and e-mail; and does not adequately consider differences in error notice
requirements among magnetic media and paper filers. Furthermore, error notices do
not provide employers with a single complete list of name and/or SSN errors found. As
part of SSA’s initiative to address these concerns, the Agency plans to direct name and
SSN error correspondence to the employer rather than to the employee, which is the
current policy. SSA senior staff told us their overall goal is to make wage reporting as
easy as possible for those employers interested in accurate reporting.

To further assist employers, SSA and the INS have been participating in a pilot since
1997 to help employers determine their new hires’ employment eligibility through an
automated check of SSA’s and INS’ data bases. SSA offered the Basic Pilot to
employers on a voluntary basis in States with the highest number of immigrants, per the

SSN Misuse In The Agriculture Industry (A-08-99-41004)                                 9
terms of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996.
Employers in New York, Texas, Illinois, California, Florida, and Nebraska are using the
Pilot.

Employer Participation in EVS

SSA made EVS available to employers to assist them in verifying employee names and
SSNs with SSA records, thus reducing the incidence of SSN misuse. However, the
agricultural employers we interviewed did not use EVS. Employers stated EVS is not
helpful because SSA takes too long to respond or is too helpful because they learn that
many of their employees are unauthorized noncitizens. For example, one employer told
us he hires hundreds of workers at a time, and he can’t wait weeks for a response from
SSA. Another employer stated he does not want to know whether his employees are
illegal because such knowledge makes him vulnerable to fines and penalties.

SSA is considering expanding EVS and has plans for a pilot project to provide
employers with an on-line employee verification service (OEVS). We believe SSA’s
plans to provide on-line verification is a positive step. However, we have concerns
about the extent to which the new service will actually reduce SSN misuse, given it will
still be voluntary, and many employers do not want to know whether their employees
are unauthorized. SSA senior staff agree that requiring employers who consistently
submit erroneous or incorrect wage reports to use EVS could increase employer
accountability.

Assistance from Other Federal Agencies

Because SSA has no legal authority to levy fines and penalties, the Agency requires

other Federal agencies to assist in combating SSN misuse. Specifically, as provided by

law, SSA must rely on the IRS to enforce penalties for inaccurate wage reporting and
the INS to enforce

immigration laws.

Unfortunately, the

IRS has been

reluctant to apply

penalties, and SSA

and the INS have

had limited collaboration on the issue.


IRS Reluctant to Apply Penalties. SSA senior staff stated that employers have no

incentive to submit accurate annual wage reports because the IRS rarely enforces

existing penalties. SSA staff believed applying penalties would have a rippling effect on

employers who consistently misreport wage information and serve as a deterrent to

SSN misuse in the agriculture industry. Although SSA is primarily interested in

penalizing only the most egregious employers, IRS senior staff expressed concern with

the application of even these penalties. IRS senior staff members believe they and SSA

will have a difficult time determining whether an employer exercised appropriate



SSN Misuse In The Agriculture Industry (A-08-99-41004)                                 10
diligence in obtaining the necessary information from employees. SSA senior staff,
however, believes the Agency could provide the IRS with sufficient evidence to show an
employer knew or should have known its employees’ SSNs were incorrect. For
example, a reasonable person should recognize it is infeasible for hundreds of workers
to have the same or consecutively numbered SSNs.

Despite the IRS’ concerns, the two Agencies have held discussions to explore the
enforcement of an existing penalty provision ($50 per error) for employers who
repeatedly submit erroneous name and/or SSN information. To implement the penalty,
SSA and the IRS agree the Agencies must (1) jointly define the circumstances for
applying penalties, (2) identify information needed from SSA for the IRS to support
applying penalties, and (3) develop the proposed data flow and procedures to be
followed.

SSA is also discussing with the IRS a regulation that would give employers the right to
see a newly hired employee’s SSN card.2 SSA senior staff believe if prospective
employees are required to show employers their SSN card, inaccurate names and
SSNs will be reduced. We support employers’ rights to see the SSN card and have
recommended that SSA assign a higher priority to this initiative. However, we are
concerned the proliferation of fraudulent employment eligibility documents, such as the
SSN card, will still make it difficult for employers to ensure employment to only
authorized workers. For example, in May 1998, the INS seized over 24,000 counterfeit
SSN cards in Los Angeles after undercover agents purchased 10,000 fraudulent INS
permanent resident cards from a counterfeit document ring. Many of these counterfeit
cards could have been used to obtain employment.

Limited Collaboration Between SSA and the INS. Both SSA and INS senior staff told
us collaboration between the two Agencies has been limited. In SSA’s December 1997
version of the ESF Tactical Plan, the Agency included an initiative to develop a better
understanding of the extent that immigration issues may contribute to name and SSN
mismatches and the ESF’s growth. The initiative was to involve SSA working with the
INS to formulate and conduct a limited review of employers who (1) employ large
number of immigrants and (2) experience high name and SSN error rates in their
Annual Wage Reporting (AWR). According to SSA representatives, because of privacy
and disclosure limitations, the Agency determined it could not share such information
with the INS. Therefore, SSA did not include this project in subsequent versions of the
ESF Tactical Plan.

SSA recognizes unauthorized noncitizens contribute to SSN misuse and the growth of
the ESF, but it cannot quantify the extent to which they contribute to this problem. SSA




2
 The U.S. Immigration and Nationality Act provides that employers hiring an individual must verify his/her
employment authorization. Individuals are not required to submit a specific document, but rather may
provide one of several specified documents, including the SSN card.

SSN Misuse In The Agriculture Industry (A-08-99-41004)                                                  11
senior staff acknowledged the political nature of this issue and told us there is no
consensus in Congress on how to address the problem of unauthorized noncitizens.

We recognize SSA has no control over immigration policy; however, we are concerned
the INS’ new worksite enforcement strategy (de-emphasis on workplace raids) will
impact SSA’s ability to address SSN misuse in the agriculture industry. INS senior staff
told us workplace inspections are not an enforcement priority. In fact, INS field office
staff we interviewed stated they were unaware of any California or Florida farmer who
had been fined for hiring unauthorized workers over the past several years. However,
an INS senior staff member stated the INS would be interested in receiving information
regarding chronic problem employers from SSA. He added these data would assist the
INS in assigning its limited resources in productive areas.

During the course of our audit SSA senior officials reaffirmed that the Agency could not
share information on problem employers with the INS because of privacy and disclosure
issues. SSA believes its application of privacy and disclosure policy (that is, sharing
name/SSN information) complies with existing law, and we agree with this analysis.
However, such a position should not distract from SSA’s obligation to seek legislative
remedies. Specifically, SSA may seek additional legislative authority to assist in
removing any barriers it believes preclude the sharing of this information.

We believe the INS’ worksite enforcement strategy encourages even more employers to
hire unauthorized noncitizens and may result in growth of the ESF. A March 9, 2000
New York Times article illustrates this point. In the article, one individual discussed how
he had practiced an escape plan for years in the event of an INS raid, but now he feels
safe given INS’ de-emphasis on workplace raids.

Plans for Addressing Unauthorized Noncitizens

As required by the Government and Performance Results Act of 1993, agencies must
articulate, in a strategic plan, how they will address issues that significantly affect their
ability to manage program operations.3 Given the magnitude of SSN misuse, especially
in the agriculture industry, it is important for SSA to address this concern in such a plan.
SSA’s ESF Tactical Plan, however, does not articulate how SSA will address the
intentional misuse of SSNs by unauthorized noncitizens and how this affects the ESF’s
growth and size. This issue is particularly important, given that SSA acknowledges
unauthorized noncitizens account for a major portion of suspended wage items. An
expanded plan would provide better direction and guidance by identifying specific
objectives, describing how SSA would achieve them, and explaining key external
factors that could affect achievement of those objectives.

In addition, taking a more strategic approach would help SSA establish annual
performance goals and measures related to its long-term objectives and determine how


3
 Government and Performance Results Act (P.L. 103-62) requires agencies to clearly define their
missions, set goals, measure performance, and report on their accomplishments.

SSN Misuse In The Agriculture Industry (A-08-99-41004)                                            12
it will assess its progress in achieving them. Specific performance measures could
include tracking the Agency’s progress in reducing the ESF’s growth and size. By
benchmarking and periodically assessing progress in reducing the growth and size of
the ESF, SSA would be in a better position to measure its vulnerability to SSN misuse,
focus its efforts on the largest contributors to the ESF, and allocate an appropriate level
of resources to address this problem.




SSN Misuse In The Agriculture Industry (A-08-99-41004)                                   13
                                         Conclusions and
                                            Recommendations
SSN misuse within the agriculture industry results in millions of dollars in wages that
cannot be associated with workers’ earnings records and adversely affects public
confidence in SSA’s stewardship of Agency programs. We recognize no single agency
can adequately combat this problem. However, given the magnitude of SSN misuse, as
evidenced by the large number of incorrect wage items submitted by agricultural
employers, we believe SSA should take preemptive and preventive measures to ensure
the integrity of the SSN. Ultimately, the success of SSA’s efforts will depend on the
priority it places on prevention and detection of SSN misuse and how successful it is in
obtaining assistance and support from the IRS and the INS.

RECOMMENDATIONS

We believe the actions recommended in previous reports and those in this report will
assist SSA in combating SSN misuse and reducing the growth and size of the ESF.
Accordingly, we recommend that SSA:

1.	 Expedite implementation of the initiative to improve communication of name/SSN
    errors to employers and employees.

2.	 Seek legislative authority to provide SSA with the tools to require chronic problem
    employers to use EVS.

3.	 Collaborate with the INS to develop a better understanding of the extent that
    immigration issues contribute to SSN misuse and growth of the ESF. Additionally,
    reevaluate its application of existing disclosure laws or seek legislative authority to
    remove barriers that would allow the Agency to share information regarding chronic
    problem employers with the INS.

4. 	 Establish performance goals and measures in accordance with Government and
     Performance Results Act of 1993 that track SSA’s success in reducing the growth
     and size of the ESF.




SSN Misuse In The Agriculture Industry (A-08-99-41004)                                    14
AGENCY COMMENTS

In its response, SSA agreed with our first recommendation and stated it has already
begun implementing the corrective action. For Tax Year (TY) 2000, which begins
January 29, 2001, SSA plans to accelerate the return of name/SSN error information to
employers. Additionally, SSA has developed a stronger notice communicating
name/SSN error information to employers. Further, on its resubmittal notices (which
return the entire report to the employer), SSA plans to include counts of the number of
zero SSNs (000-00-0000), invalid SSNs (SSNs that could not be compared to SSA’s
Numident), and name/SSN mismatches.

As a part of its response to our first recommendation, SSA also described further
changes it plans to implement to the TY 2000 Annual Wage Reporting (AWR) edits.
Specifically, SSA plans to (1) eliminate the current 50-percent tolerance rate for
acceptance of name/SSN mismatches; (2) apply a 95-percent format edit for SSN and
name fields in reports with 50 or more W-2s; and (3) eliminate the threshold of 5,000 or
more name/SSN mismatches (failure of edit requires a resubmission). For TYs 2001
and beyond, SSA plans to modify the AWR process so all good name/SSN items are
processed to the Master Earnings File, incorrect items go into the ESF, and a request
for corrective action is sent to the employer as soon as possible.

SSA disagreed with our second recommendation. SSA stated the IRS already has the
authority to penalize employers who do not comply with wage reporting requirements.
Furthermore, the Agency stated it identified the top chronic ESF offenders for TYs 1996
through 1998 and shared this information with the IRS.

SSA also disagreed with our third recommendation concerning collaboration and the
sharing of information with the INS. In its response, SSA stated its interpretation of
privacy and disclosure issues is accurately applied and continues to provide appropriate
disclosure guidance with existing authority. SSA stated current regulations provide
sufficient authority to share information with other agencies, including the INS, in
situations that are consistent with the purpose of the Social Security program and SSA’s
disclosure policies. The Agency does not see a need to reevaluate its disclosure
policies or seek legislation in this area.

To address recommendation four, SSA agreed that a performance measure related to
the steps it is taking to limit the growth of the ESF may be appropriate and plans to
evaluate how it can establish such goals and measures.




SSN Misuse In The Agriculture Industry (A-08-99-41004)                                  15
OFFICE OF THE INSPECTOR GENERAL RESPONSE
We acknowledge the steps SSA has taken and contemplated to combat SSN misuse
and the growth of the ESF. We believe the Agency’s response and planned actions
adequately address recommendations 1 and 4.

Regarding SSA’s response to recommendation 1, however, we do have concerns
whether applying the new 5-percent acceptance threshold and eliminating the
5,000 threshold will improve wage-reporting accuracy. This new policy will allow up to
95 percent of a wage report to be in error, and SSA will still process the wage
information without requiring an employer to review and correct the wage report at least
once. An employer would receive an educational correspondence notice with up to 500
of the incorrect SSNs listed. However, if the employer chooses not to review or correct
the W-2s reported, there is no further contact from SSA. Therefore, employers have no
incentive to improve their wage reporting accuracy. We encourage SSA to reconsider
implementation of the new AWR policies until it conducts further analysis to determine
the possible effect on the ESF.

SSA’s responses to recommendations 2 and 3, do not effectively respond to our goal of
combating SSN misuse and reducing the growth and size of the ESF.

Regarding recommendation 2, the IRS has been reluctant to impose existing civil
penalties against employers who submit inaccurate wage reports, as discussed in this
report. IRS senior staff expressed concern with the application of penalties because
they believe it is difficult to determine whether an employer exercised appropriate
diligence in obtaining the necessary information from employees. We continue to
believe it is important that SSA seek legislative authority to require employers who
submit inaccurate wage reports to use EVS. By doing so, SSA could assist the IRS in
its efforts to apply penalties (by providing them with sufficient evidence to show an
employer knew, or should have known, its employees’ SSNs were incorrect). We
acknowledge SSA’s efforts in working with the IRS to improve employer wage reporting.
However, until SSA requires chronic problem employers to use EVS and holds them
accountable for their actions, we do not believe employer wage reporting will
significantly improve. Accordingly, we ask the Agency to reconsider its response to this
recommendation.

We also do not agree with SSA’s response to recommendation 3. We did not intend to
suggest that SSA is not in compliance with current law and regulations. Rather, our
intent was to urge the Agency to explore all potential options under current law and
regulations first before seeking new legislative authority. We acknowledge SSA’s
efforts to combat SSN misuse and reduce the ESF’s growth. However, given the
magnitude of SSN misuse by unauthorized noncitizens, we continue to believe SSA
should take preemptive and preventive measures to ensure the SSN’s integrity. We
believe that seeking legislative authority to remove barriers that would allow the Agency
to share information with the INS, as it currently does with the IRS, is imperative. In
fact, an INS senior staff member stated the INS would be interested in receiving


SSN Misuse In The Agriculture Industry (A-08-99-41004)                                 16
information on chronic problem employers from SSA. Without SSA action, we do not
believe the Agency will make significant progress in addressing SSN misuse and the
ESF’s growth. We also point out that SSA’s response did not address the part of our
recommendation about collaborating with the INS to develop a better understanding of
the extent immigration issues contribute to SSN misuse and the ESF’s growth. As
discussed in this report, unauthorized noncitizens contribute greatly to SSN misuse and
the ESF’s growth. As such, we continue to believe SSA should collaborate with the INS
to determine the extent to which unauthorized noncitizens contribute to these problems.
Therefore, we also ask that SSA reconsider its response to this recommendation.

SSA also provided technical comments that we considered and incorporated, where
appropriate. The full text of SSA’s comments is included in Appendix B.




SSN Misuse In The Agriculture Industry (A-08-99-41004)                               17
                                            Appendices





SSN Misuse In The Agriculture Industry (A-08-99-41004)
                                                                          Appendix A

Prior Office of the Inspector General
Recommendations

 Recommendations Made To The Social Security Administration To Curtail The Growth and
                       Size of The Earnings Suspense File

       Patterns of Reporting Errors and                 The Social Security Administration’s
Irregularities by 100 Employers with the Most        Earnings Suspense File Tactical Plan and
            Suspended Wage Items                    Efforts to Reduce the File’s Growth and Size
  (A-03-98-31009, issued September 1999)              (A-03-97-31003, issued February 2000)

1. Develop and implement a corrective              1. Implement an Earnings Suspense File
action plan for 100 employers and continue         (ESF) Tactical Plan that places a high priority
its current efforts to contact those employers     on key ESF reduction initiatives to include
who are responsible for large numbers of           utilizing the Office of the Inspector General
suspended wage items.                              information to refine the Social Security
                                                   Administration’s data base of chronic
                                                   problem employers and to key in on those
                                                   with a multi-year history of submitting large
                                                   numbers of erroneous wage items.

2. Establish preventive controls to detect         2. Assign a higher priority to work with the
wage reporting errors and irregularities.          Internal Revenue Service (IRS) to prepare a
                                                   legislative proposal to clarify employers’ right
                                                   to see the Social Security card before hiring.

3. Identify those employers who continually        3. Pursue with the IRS penalties on chronic
submit annual wage reports with large              problem employers.
numbers and/or percentages of unassigned,
identical, and/or consecutively numbered
Social Security numbers.

4. Run address standardization software as     4. Seek sanctioning (penalty) authority if the
soon as practical after employers submit their IRS fails to impose penalties against chronic
annual wage reports to identify employers      problem employers.
that report the same address for many
employees.




SSN Misuse In The Agriculture Industry (A-08-99-41004)
                                                         Appendix B


Agency Comments





SSN Misuse In The Agriculture Industry (A-08-99-41004)
                                                       ~C;
                                                            ..,." SEC~
                                                                     ~

                                                      .f1       ~"'\"1
                                                         usA'~
                                                     ~ IIDfIJ .l
                                                      ~J.v~~..

                                         SOCIAL               SECURITY


MEMORANDUM


           November 14,2000                                                      Refer To: SlJ-3

           JamesG. Ruse, Jr.
           Inspector General

From:      William A. Halter ~0.-~
           Deputy Commissioner of Social Security

Subject:   Office of the Inspector General (OIG) Draft Report, "Obstaclesto Reducing Social Security
           Number Misuse in the Agriculture Industry" (A-O8-99-41004)--INFORMATION


           Thank you for the opportunity to review and comment on this report. We appreciateGIG's
           efforts in conducting this review and GIG's acknowledgementof the Agency's efforts to reduce
           Social Security number misuse and to improve employer reporting. The attachedcomments
           detail additional actions we are taking to improve the accuracyof the reporting processfor
           employers. Additionally, we provide technical commentsthat we believe will improve the
           accuracyand presentationof the report.

           Pleaselet us know if we may be of further assistance.Staff questionsmay be referred to Dan
           Sweeneyon extension51957.

           Attachment:
           SSA Response
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
"OBSTACLES TO REDUCING SOCIAL SECURITY NUMBER MISUSE IN THE
AGRICULTURE INDUSTRY" (A-08-99-41004)


Recommendation 1

Expedite implementation of the initiative to improve communication of name/Social Security
number (SSN) errors to employers and employees.

Comment

We agree. The Agency has already begun implementing this recommendation. For tax year
(TY) (TY 2000 processing begins January 29, 2001), SSA will accelerate the return of
name/SSN error information to employers. SSA has developed a stronger notice communicating
name/SSN errors to employers which requests that the employer take corrective action. This
clear, simple notice provides the employer with detailed instructions on correcting current
mismatches and preventing future mismatches, thus reducing the risk of possible penalties. In
addition, the notices urge the employer to have the employee work with the Social Security
Administration to resolve any problems and cautions the employer that the simple fact of a
failure of the data to match SSA records is not in and of itself a reason for taking action against
an employee. In an effort to ensure that the notice does not result in workers being deprived of
their rights, the notice also informs the employer that actions taken on the basis of the failure of
the data to match SSA records may be a violation of state or federal law. The Agency also sends
similar notices to the employees in an effort to resolve failures to match. Similarly, to ensure
that workers are not deprived of their rights, the employee notices contain information on what to
do if the employee believes any adverse action taken is related to union activity or to race, sex,
color, religion or national origin. The employee notices are sent directly to the employees if SSA
has the home address, otherwise the notices are sent to the employee in the care of the employer.
The notice to employers will contain up to 500 individual error items (rather than the current
250). Also, for TY 2000, resubmittal notices (which return the entire report to the employer)
will include counts of the number of zero SSNs (000-00-0000), invalid SSNs (SSNs that could
not be compared to SSA’s Numident) and name/SSN mismatches.

The following changes to the TY 2000 Annual Wage Reporting (AWR) edits have been
approved to accelerate the return of employers’ name/SSN error information: 1) Eliminate
current 50 percent tolerance for acceptance of name/SSN mismatches; 2) apply 95 percent
format edit for SSN and name fields in reports with 50+ W-2s; and 3) eliminate threshold of
5000+ name/SSN mismatches (failure of edit requires a resubmission).

For TYs 2001 and beyond, SSA plans on modifying the AWR process so that all good
name/SSN items are processed to the Master Earnings File, incorrect items go into the Suspense
File and a request for corrective action is sent to the employer as soon as possible. To improve
communication of name/SSN errors to employers, SSA has incorporated several projects into the
Electronic Wage Reporting (EWR) Transition Plan. For example, we are exploring online error




SSN Misuse In The Agriculture Industry (A-08-99-41004)                                          B-1
information capability via the internet that will include online error reference material for
name/SSN mismatches.

Recommendation 2

Introduce legislation that would provide SSA the authority to require chronic problem employers
to use Enumeration Verification System (EVS).

Comment

We disagree. The Internal Revenue Service (IRS) already has the authority to penalize
employers who do not comply with wage reporting requirements. Earlier this year, SSA
identified the top chronic Earnings Suspense File (ESF) offenders for TYs 1996 through 1998
and shared this information with IRS. We asked IRS to make use of this data to improve the
name/SSN reporting for these employers. In addition, SSA will continue working with
employers and employer groups to assist in correctly reporting earnings.

Recommendation 3

Collaborate with the INS to develop a better understanding of the extent that immigration issues
contribute to SSN misuse and growth of the ESF. Additionally, reevaluate application of
existing disclosure laws or seek legislative authority to remove barriers that would allow the
Agency to share information regarding chronic problem employers with the INS.

Comment

We disagree. SSA’s interpretation of privacy and disclosure issues (including the impact of
Section 6103 and IRS’s interpretation thereof on SSA’s ability to share data) is accurately
applied and continues to provide appropriate disclosure guidance within existing authority.

SSA and its predecessor organizations have a long history of protecting the confidentiality of
records in our care. Following the enactment of the Social Security Act (the Act) in 1935, the
Social Security Board, a predecessor of SSA, pledged to the public that information provided to
it by individuals and employers would be regarded as confidential. This broad pledge of
confidentiality was translated into official binding rules when the Board published its first
regulation under the authority of the Act in 1937. The original Regulation No. 1 established that
information obtained in administering the Act was confidential and no information would be
disclosed except pursuant to the authorization of the individual or as authorized by the Board or
by regulation and that primarily, information would be disclosed only for administration of the
Act. A specific statutory provision relating to disclosure of Social Security records was enacted
in 1939 as section 1106 of the Act. The section reflected the policy on disclosure established
under Regulation 1.

Disclosure rules developed after 1939 added exceptions to the general prohibition against
disclosure in response to increased program responsibilities – Medicare and the Supplemental
Security Income (SSI) program – and other programs serving the same clients and having



SSN Misuse In The Agriculture Industry (A-08-99-41004)                                          B-2
informational needs that were identical or similar to those of SSA. However, SSA general policy
on disclosure did not change, and SSA did not authorize disclosure for general law enforcement
purposes and disclosure demanded by court orders and compulsory legal process.

The enactment of the Privacy Act of 1974, Pub. L. 93-579, re-enforced SSA’s fundamental
views regarding confidentiality of its program records about individuals. As a result of the
passage of the Privacy Act, SSA revised its regulations. The revisions acknowledged SSA’s
obligation under several statues other than section 1106(a) of the Act to either disclose or
withhold personal information. However, much of SSA’s traditional philosophy was preserved
in the new regulations, which continued to allow disclosure of certain types of information for
administration of governmentally funded income and health maintenance programs serving the
same clients as those served by programs administered by SSA; as well as disclosure for
enforcement of laws governing programs administered by SSA.

Currently, SSA’s regulation authorized SSA to disclose information for law enforcement
purposes: 1) When the individual to whom the requested information pertains has been indicted
or convicted of a violent crime; or 2) for investigation or prosecution of criminal activity
involving a Social Security program or another governmental health or income maintenance
program.

SSA’s current regulations provide sufficient authority to share information with other agencies,
including the INS, in situations that are consistent with the purposes of the Social Security
program and SSA’s disclosure policies. There is no need for SSA to reevaluate its disclosure
policies or to seek legislation in this area.

Recommendation 4

Establish performance goals and measures in accordance with Government Performance and
Results Act that track SSA's success in reducing the growth and size of the ESF.

Comment

We agree. While the main factor contributing to the size of the ESF is external to SSA, we do
agree that a performance measure related to the steps we are taking to limit the growth of the
ESF may be appropriate. In recent years SSA has done a number of things aimed at reducing the
growth and size of the ESF including improving the quality of our name/SSN validation process
by using name recognition software, and reducing the threshold for rejecting magnetic
media/EWR (Electronic Wage Report) files to bad name/SSN. We will evaluate how we can
establish performance measures related to our efforts.




SSN Misuse In The Agriculture Industry (A-08-99-41004)                                        B-3
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Gary A. Kramer, Director, Operational Audits Division (Retired)

   Kimberly A. Byrd, Deputy Director, Enumeration
   (205) 801-1605

Acknowledgments

In addition to those named above:


   Jeffrey L. Pounds, Senior Program Analyst

   Charles A. Lober, Senior Auditor

   Kimberly Beauchamp, Writer-Editor, Policy, Planning & Technical Services Division


For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-08-99-41004.




SSN Misuse In The Agriculture Industry (A-08-99-41004)
                           DISTRIBUTION SCHEDULE


                                                                             No. of
                                                                            Copies

Commissioner of Social Security
                                                 1
Management Analysis and Audit Program Support Staff, OFAM
                      10
Inspector General
                                                               1
Assistant Inspector General for Investigations
                                  1
Assistant Inspector General for Executive Operations
                            3
Assistant Inspector General for Audit
                                           1
Deputy Assistant Inspector General for Audit
                                    1
 Director, Systems Audit Division
                                               1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders
                                                        25
Income Maintenance Branch, Office of Management and Budget
                      1
Chairman, Committee on Ways and Means
                                           1
Ranking Minority Member, Committee on Ways and Means
                            1
Chief of Staff, Committee on Ways and Means
                                     1
Chairman, Subcommittee on Social Security
                                       2
Ranking Minority Member, Subcommittee on Social Security
                        1
Majority Staff Director, Subcommittee on Social Security
                        2
Minority Staff Director, Subcommittee on Social Security
                        2
Chairman, Subcommittee on Human Resources
                                       1
Ranking Minority Member, Subcommittee on Human Resources
                        1
Chairman, Committee on Budget, House of Representatives
                         1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives 1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                             1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG’s public
affairs, media, and interagency activities and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
